U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 National Oceanic and
            Atmospheric Administration


     Audit of the Joint Polar Satellite System:
         Challenges Must Be Met to Minimize
   Gaps in Polar Environmental Satellite Data

                      Final Report No. OIG-11-034-A
                                  September 30, 2011




              FOR PUBLIC RELEASE




                       Office of Audit and Evaluation
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspect or General
                                                        Washington. D.C. 20 230
September 30, 2011

MEMORANDUM FOR: 	             Dr. Jane Lubchenco
                              Under Secretary of Commerce and Administrator

                              :I~~~eC~:~:::I 0£2losp~ministration
FROM:
                              Assistant Inspector General for Systems Acquisition
                              and IT Security

SUBJECT: 	                    Audit ofthe Joint Polar Satellite System: Challenges Must Be Met
                              to Minimize Gaps in Polar Environmental Satellite Data
                              Final Report No. OIG-11-034-A

Attached is our final audit report on the ongoing development of the Joint Polar Satellite System
(JPSS). Our objective for this audit was to assess the adequacy of JPSS development and
acquisition activities intended to maintain continuity of weather and climate data obtained from
polar orbit. To do so, we evaluated the completeness of development and testing leading up to
the National Polar-orbiting Operational Environmental Satellite System (NPOESS) Preparatory
Project (NPP) launch, the impact of development modifications (such as changes to test
schedules), and preparations for post-launch data production. We also examined activities at the
JPSS programmatic level that had ramifications for the continuity of polar satellite coverage
beyond NPP.

We found that while NPP remains on track to launch in October 2011, there are still several risks
to using NPP's data operationally. First, the availability of some data for operational use will be
delayed. Second, the ground system supporting NPP is not as robust as a typical operational
system. It is expected that there will be a gap in coverage between NPP and the first JPSS
satellite (JPSS-1) and budget challenges have presented difficulties for the program. Under
continued funding uncertainty, the program needs to do further work to define its operational
baseline, prioritize requirements, and plan for tradeoffs when funding shortfalls occur. Efforts to
mitigate the impact of a coverage gap should be coordinated across NOAA's line offices. Lastly,
the program only recently completed the transition of the Advanced Technology Microwave
Sounder to a NASA contract, but this and other instrument contracts must be finalized.

We have received your response to our draft report. We modified this final report as needed to
address your comments, summarized the comments in the report, and included the response as an
appendix to the report. The report will be posted on OIG 's website pursuant to section 8L of the
Inspector General Act of 1978, as amended.

Under Department Administrative Order 2 13-5, you have 60 calendar days from the date of this
memorandum to submit an audit action plan to us. The plan should outline the actions you
propose to take to address each audit finding and recommendation.
We would like to extend our thanks to NOAA for the courtesies shown our staff during our
fieldwork. Please direct any inquiri es regarding this report to me at (202) 482- I 855 or Fred
Meny, Director, Satellites and Weather Systems, at (202) 482-1931.

Attachment

cc:    Mary M. Glackin, Deputy Under Secretary for Operations, NOAA
       Mary E. Kicza, Assistant Administrator, National Environmental Satellite, Data,
          and Information Service, NOAA
       Mack Cato, Director, Office of A udit and Information Management, NOAA
       Geovette E. Washington, Deputy General Counsel, Department of Commerce
                                     Report In Brief
                                             U.S. Department of Commerce Ofﬁce of Inspector General
                                                               September 30, 2011


Why We Did This Review National Oceanic and Atmospheric Administration
Our objective for this audit
was to assess the adequacy      Audit of the Joint Polar Satellite System (JPSS):
of NOAA’s JPSS develop-         Challenges Must Be Met to Minimize Gaps in Polar
ment and acquisition activities
intended to maintain continuity Environmental Satellite Data (OIG-11-034-A)
of data obtained from polar or-
bit, including the completeness What We Found
of pre-launch development and
testing, the impact of develop- 1. 	 While the National Polar-orbiting Operational Environmental Satellite System
ment modifications (such as          (NPOESS) Preparatory Project (NPP) remains on track for an October 2011 launch,
changes to test schedules), and      late development of the ground system (equipment for controlling the satellites and
preparations for post-launch
                                     receiving and processing satellite data) has delayed the schedule for post-launch data
data production. We also
examined activities at the JPSS
                                     production. In addition, NPP’s ground system is not as robust as a typical operational
programmatic level that had          system, increasing the risk of data loss and disruptions to satellite control during severe
ramifications for the long-term      weather events.
continuity of polar satellite   2. 	 Our examination of program-level activities conﬁrms a coverage gap that NOAA
coverage.                            expects to occur between NPP’s end of life and the operational date of the ﬁrst JPSS
Background                               satellite. This gap will result in degraded weather forecasts and a break in the climate
NOAA’s environmental satel-              record.
lite operations and weather          3. 	 The process for deﬁning JPSS’ operational baseline of capabilities, costs, and schedule
forecasting are designated                has been prolonged, resulting in uncertain life-cycle cost estimates and budget require-
primary mission-essential                 ments during a period when decision makers needed clarity in these areas.
functions of the Department
of Commerce because they             4. 	 The transition of instrument contracts from the control of the NPOESS program to
directly support government               JPSS has just been completed, but delays in ﬁnalizing the contracts could lead to fur-
functions the President has               ther cost increases and schedule degradation.
deemed necessary to lead and
sustain the nation during a
catastrophic emergency. But          What We Recommended
NOAA’s current constellation
of polar and geostationary
operational environmental
                                     1. 	 NOAA should take steps to mitigate risks of using NPP data operationally by determin-
satellites is aging, and its              ing the availability of additional resources to support preparations for post-launch data
capabilities will degrade over            production. Management should determine the feasibility of establishing an alternate
time. As a result, the risk of            mission management center and an additional station to which satellite data may be
gaps in critical satellite data is        transmitted.
increasing.                    2. 	 NOAA should also adequately oversee planning and coordination between the JPSS
The JPSS program is the result      program and external entities to ensure the adequacy of JPSS development activities.
of a 2010 restructuring of the 3. 	 NOAA should coordinate efforts from across its line offices to minimize the degrada-
NPOESS program, which had           tion of weather and climate forecasting during gaps in satellite coverage.
a long history of delays and
cost overruns. As a result of  4. 	 To more efficiently manage the JPSS program under continued budget uncertainty,
these delays, the NPP satel-        NOAA should provide decision makers with data illustrating the consequences of limit-
lite, which was originally          ing satellite observational capabilities. NOAA should prioritize all of JPSS’ require-
intended to demonstrate new         ments and develop a plan for making adjustments in response to funding shortfalls.
instruments, will now be used 5. 	 To fully transition from NPOESS to JPSS, contracts with instrument vendors must be
operationally to maintain data
                                    finalized.
continuity.
U.S. Department of Commerce                                                                                                            Final Report 

Office of Inspector General                                                                                                      September 30, 2011 



                                                                     Contents


Introduction ............................................................................................................................................ 1
 
Findings and Recommendations ............................................................................................................ 4
 
   I.  NOAA Should Take Steps to Mitigate Risks of Using NPOESS Preparatory Project Data 

   Operationally...................................................................................................................................... 4
 
       A.  Late Ground System Development, Communication and Coordination Challenges, and 

       Staff Reductions Have Delayed Availability of Some NPP Data ..................................................4
 
       B.  NPP’s Ground System Lacks Some Features of Operational Satellite Systems ....................4
 
       C.  Ground System Issues Accumulated While Management Focused on Instrument Delays ....5
 
       D.  NPP’s Schedule Compression Introduced Additional Risks ..................................................6
 
   II.  NOAA Must Act to Minimize Expected Gap Between NPP and JPSS-1..................................7
 
       A.  Current Gap Analysis Indicates Improvement in Satellite Coverage, but a Significant 

       Expected Gap Between NPP and JPSS-1 Remains ........................................................................8
 
       B.  Funding Challenges Restricted Acquisition and Development, Delayed Satellite Launch 

       Dates, and Created the Expected Gap ..........................................................................................10
 
       C.  JPSS Program’s Baseline Capabilities, Costs, and Schedule Need to Be Finalized.............11
 
   III.       JPSS Program Needs to Overcome NPOESS-to-JPSS Transition-Related Challenges .......12
 
       A.  Advanced Technology Microwave Sounder Contract Transition Was Delayed ..................12
 
       B.  Other Instrument Contracts Have Not Been Finalized .........................................................13
 
Summary of NOAA Comments and OIG Response............................................................................ 15
 
Appendix A: Objectives, Scope, and Methodology............................................................................. 16
 
Appendix B: Response to OIG’s Draft Report .................................................................................... 18
 
U.S. Department of Commerce                                                                              Final Report 

Office of Inspector General                                                                        September 30, 2011 



                                                               Introduction


The National Oceanic and Atmospheric Administration’s (NOAA’s) polar-orbiting operational
environmental satellites 1 provide critical data for civilian and military use by the United States
and its international partners through global observations of conditions that affect weather and
climate. The satellites also provide data on environmental indicators such as vegetation, active
fires, and dust storms. In addition, NOAA’s current operational satellites include sensors that
detect signals from emergency beacons and
transmit them to search and rescue organizations.          Figure 1. Polar-Orbiting Satellites
With the earth rotating beneath, polar-orbiting
satellites pass over the north and south poles
while continuously circling the planet, viewing
the entire earth’s surface twice a day over the
course of approximately 14 orbits. Three polar
operational environmental satellite constellations
will collectively provide, for any location on the
globe, observations that are generally refreshed at
6-hour intervals (figure 1): Department of
Defense satellites that cross the equator in the
early morning, European satellites 2 that cross in
the midmorning, and NOAA satellites that cross
in the early afternoon (referred to as the early-
morning, mid-morning, and afternoon orbits).
Polar-orbiting satellite sensors capture higher
spatial resolution data than geostationary
satellites due to a lower orbit, and are a          The three orbits of polar operational environmental satellites.
                                                    Source: OIG, adapted from NPOESS illustration
significant part of the global observing system, a
major component of numerical weather prediction. Observations from polar satellite sensors
constitute the most important data for 3-day and longer forecasts of significant weather events—
advance warnings that protect lives and property.
NOAA’s current constellation of satellites is nearing its end of life, and replacement satellites are
needed to maintain continuity of observations in the afternoon orbit. NOAA’s Joint Polar
Satellite System (JPSS) program, for which the National Aeronautics and Space Administration
(NASA) is the systems integrator, will acquire and develop the next-generation polar satellite
system for the afternoon orbit, including a common ground system 3 that will also operate
Defense satellites and share data with international satellite programs. In February 2010, the

                                                            
1
  NOAA’s operational satellites are distinct from research satellites in that they make consistent contributions to

weather and climate prediction and NOAA launches new operational satellites as they reach the end of their design

lives. NASA’s research satellites demonstrate new technologies and attempt to advance scientific capabilities. 

Successfully demonstrated capabilities can be made part of operational satellites thereafter. 

2
  European Organisation for the Exploitation of Meteorological Satellites (EUMETSAT). 

3
  A ground system consists of equipment for controlling the satellites and for receiving and processing satellite data. 



                                                                    1
 
U.S. Department of Commerce                                                                        Final Report 

Office of Inspector General                                                                  September 30, 2011 



White House’s Office of Science and Technology Policy announced its decision 4 to have
NOAA, in partnership with NASA, establish the JPSS program as part of a restructuring of the
National Polar-orbiting Operational Environmental Satellite System (NPOESS), a tri-agency
(Defense, NOAA, and NASA) program, which had a long history of cost overruns and schedule
delays during its efforts to develop the next generation of satellites for all three orbits.
As a result of NPOESS’ delays, the NPOESS Preparatory Project (NPP) satellite, a NASA
research and risk reduction satellite originally intended to demonstrate new instruments, will
now be used operationally to maintain continuity of data from the afternoon orbit. NPP is
scheduled to launch in late October 2011 and is designed to last 5 years, but whether its
instruments will last as long as its design life is unclear.
The first satellite developed under the JPSS program, JPSS-1, will be a near-clone of the NPP
satellite, although it will be built to more rigorous engineering standards that reflect operational
needs. It is currently targeted to launch in the first quarter of FY 2017 and will not be operational
until after the end of NPP’s design life in November 2016. Therefore, NOAA is predicting a gap
in the continuity of polar satellite data from the afternoon orbit.
Effectively managing the development and acquisition of NOAA’s environmental satellite
systems is one of the Department’s top management challenges. 5 In a June 10, 2011,
memorandum to the NOAA Administrator, we detailed our preliminary observations, based on
our fieldwork up to that point, in the following areas: funding challenges, NPOESS-to-JPSS
transition delays, NPP launch and ground system status, and the program’s life-cycle cost
estimate. 6 We have further developed those observations, along with new information, into the
findings and recommendations presented in this report.
Our objective for this audit was to assess the adequacy of JPSS development and acquisition
activities intended to maintain continuity of data obtained from polar orbit, including the
completeness of development and testing leading up to the NPP launch, the impact of
development modifications (such as changes to test schedules), and preparations for post-launch
data production; our results in these areas are detailed in our first finding. We also examined
activities at the JPSS programmatic level that had ramifications for the continuity of polar
satellite coverage beyond NPP; the results of that work are captured in findings II and III. Our
audit scope, objectives, and methodology are described in appendix A.
As a result of our audit, we concluded that while NPP, as part of the JPSS program, remains on
track for an October 2011 launch, schedule compression during development and acquisition
activities has increased the risk that the continuity of data from the afternoon orbit cannot be
maintained after the current operational satellite reaches its end of life. In addition, our
examination of program-level activities confirmed an expected coverage gap between NPP and
JPSS-1. The process for defining JPSS’ operational baseline of capabilities, costs, and schedule

                                                            
4
  The White House Office of Science and Technology Policy, February 1, 2010. Restructuring the National Polar-

orbiting Operational Environmental Satellite System (fact sheet). Washington, D.C.

5
  U.S. Department of Commerce Office of Inspector General, December 20, 2010. Top Management Challenges

Facing the Department of Commerce (OIG-11-015). Washington, D.C.: Department of Commerce OIG.

6
  U.S. Department of Commerce Office of Inspector General, June 10, 2011. NOAA's Joint Polar Satellite System 

Audit Observations (OIG-11-029-M). Washington, D.C.: Department of Commerce OIG.



                                                               2
 
U.S. Department of Commerce                                                          Final Report 

Office of Inspector General                                                    September 30, 2011 



has been prolonged. And the transition of instrument contracts from the NPOESS program’s
control to the JPSS program’s control has not been completed, which could lead to further cost
and schedule degradation.




                                               3
 
U.S. Department of Commerce                                                              Final Report 

Office of Inspector General                                                        September 30, 2011 



                               Findings and Recommendations


 I.	 NOAA Should Take Steps to Mitigate Risks of Using NPOESS Preparatory Project 

     Data Operationally


Data from the NPP satellite, which was originally a research and risk reduction mission, will
now be used operationally to maintain continuity of weather and climate data from the afternoon
orbit. Recent efforts by NASA’s NPP team (including contractors) have put the satellite on track
to launch in late October 2011. But late development of the ground system has compressed the
mission schedule and delayed the schedule for post-launch data production. In addition, NPP’s
ground system is not as robust as a typical operational system.
A. Late Ground System Development, Communication and Coordination Challenges, and
   Staff Reductions Have Delayed Availability of Some NPP Data
Delays in ground system development have postponed efforts to ensure that the ground system’s
software matches science algorithms for creating data products. At a technical review in June
2011, the ground system’s contractor, Raytheon, indicated that the ground system’s data
processing segment will be able to support post-launch work to calibrate NPP instruments’
output and validate the scientific quality of key data records (a process called calibration and
validation). A significant number of other data records, however, will not be supported until a
ground system upgrade, which is planned for March 2012.
In addition, JPSS’ communication and coordination challenges with NOAA’s National
Environmental Satellite, Data, and Information Service (NESDIS) Center for Satellite
Applications and Research (STAR), as well as inadequate staffing within STAR, have led to a
longer post-launch schedule for activities needed to ensure data products will meet science
objectives. STAR’s mission is to accelerate the transfer of satellite observations into operations.
Yet its role, responsibility, accountability, and authority with respect to the JPSS program
(including NPP) have not been agreed to. Further, STAR’s FY 2011 staffing level was lower
than planned. As a result, initial calibration and validation is now projected to take 24 months
post-launch—6 months longer than originally planned. Our review of the program’s schedule
found that it could take even longer for some data records to be sufficiently validated for
operational use. According to the schedule, some 24 products will take from 27 to 42 months
post-launch to reach a stage where their accuracy has been established in a systematic and
statistically robust way, representing global conditions.
B. NPP’s Ground System Lacks Some Features of Operational Satellite Systems
NPOESS-era delays in the deployment of an operational satellite system led the NPOESS
executive committee in 2009—at the recommendation of an independent review team—to decide
to use NPP data for operational purposes to maintain continuity of satellite data in the afternoon
orbit. But no additional requirements were levied on NPP as a result. Unlike NOAA’s existing




                                                 4
 
U.S. Department of Commerce                                                                                 Final Report 

Office of Inspector General                                                                           September 30, 2011 



operational satellite systems, 7 NPP has only a single mission management center for controlling
the satellite. Until a backup has been established, control of the satellite is at risk of severe events
(for example, natural disasters, large-scale telecommunications outages, or equipment failures),
however unlikely, that could disrupt the mission management center’s ability to control the
satellite. Program officials told us they have commissioned studies to develop an alternate
mission management center and hope to have one ready well in advance of the JPSS-1 launch.
NPP’s ground station has the system’s only science data downlink (the means to transmit a
signal from the satellite to the ground station). With only a single downlink, disruptions to the
antenna and ground equipment could result in the loss of operational data. At NPP’s flight
operations review, the independent review team noted that not receiving a single orbit’s worth of
data could cascade into a data loss, adding that NASA’s Earth Observing System research
satellites have missed several downlinks in successive orbits with a single ground station (the
NPP satellite can store data from 3.5 orbits, approximately 6 hours’ worth, before it must be
overwritten). JPSS program officials told us that the ground station has redundancy in terms of
antennas and equipment. But while the ground station may be robust, the use of a single ground
station in a single geographic location is not consistent with NOAA’s existing polar and
geostationary operational environmental satellite systems, which use more than one location.
Adding a second, geographically distinct science data downlink could improve NPP’s data
timeliness (the time from observation by the satellite to when the data has been processed by the
ground system) and increase its contribution to weather forecasting.
C. Ground System Issues Accumulated While Management Focused on Instrument Delays
During our audit survey work in 2010, we noted a growing number of unresolved problems with
ground system development and testing. From our viewpoint, while NOAA leadership was
aware of the ground system issues, its attention had previously been focused on resolving
development delays of two key instruments, the Visible/Infrared Imager Radiometer Suite
(VIIRS) and the Cross-track Infrared Sounder (CrIS).
Due to both the instrument delays and significant software builds required to resolve the ground
system problems, a key compatibility test of the ground system’s control and communication
with the satellite was postponed from August 2010 to January 2011. A second compatibility test
that focused on the flow of data through the system and the creation of data products was also
postponed. We learned that the large software builds had been delayed, in part due to significant
staffing cuts the program imposed on Raytheon in order to preserve the remaining available
funds—reduced by monies reserved for NPOESS contract termination liability—through the end
of fiscal year 2010.
Given that the ground system must first support the NPP satellite, in the summer of 2010 we
alerted Commerce and NOAA leadership to our concerns, including the potential delay of the
NPP launch and a gap in data continuity. The program responded by adding resources and
                                                            
7
  For example, NOAA’s current polar operational environmental satellites are controlled from a satellite operations facility
in Maryland, while command and data acquisition stations elsewhere in the country provide instructions to and receive
data from the satellites; one of these stations also serves as the backup control center. Additionally, through an agreement
with EUMETSAT, satellite data can be sent and received through antennas and ground support equipment at a site in
Europe. NOAA’s geostationary operational environmental satellites have similar redundancies (multiple ground stations
and a backup control center), and the next generation of geostationary satellites includes plans for the same.


                                                               5
 
U.S. Department of Commerce                                                                                 Final Report 

Office of Inspector General                                                                           September 30, 2011 



program-level attention to ground system development. As we noted in our June 2011
memorandum to the NOAA Administrator, delay in transitioning the ground system contract to
NASA added communication and coordination challenges to the program’s oversight and
direction of Raytheon’s work. With the contract transitioned in late September 2010, those
impediments were removed.
D. NPP’s Schedule Compression Introduced Additional Risks
With the delays in ground system/satellite compatibility tests, the NPP team had little schedule
margin for fixing critical or urgent issues that were identified during testing and that must be
resolved before launch. In addition, the project team postponed analysis of test results in order to
plan and prepare for successive ground system tests before the prelaunch freeze of the system’s
configuration. In part due to fixes planned for post-launch software releases, some requirements’
verification will be postponed until after launch, potentially delaying the operational use of NPP
data.
Figure 2 depicts major ground system test schedule changes over the past 2 years. As illustrated
in the chart, test events (in particular, NPP compatibility test [NCT] 3 parts 1 and 2, and NCT 4)
moved closer to the launch readiness date and closer together over time. The primary causes of
this schedule compression were delivery delays of instruments made under the NPOESS
contract, an accumulation of ground system issues, and not enough contractor staffing for the
large software build.
          Figure 2. Ground System Test Schedule Changes Over Previous 2 Years
                              (Calendar Years Shown)


   Schedule as of:
                                 2009        2010        2011
                             Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4
   October 2009                                   GSIT                 NCT3                   NCT4                LRD



   November 2009                                              GSIT    NCT3.1        NCT3.2     NCT4                   LRD

                                                                                         NCT3.2       NCT4
   August 2010                                               GSIT              NCT3.1                                 LRD


                                                                                             NCT3.2    NCT4
   March 2011                                                 GSIT              NCT3.1                                LRD

                                                                                         NCT3.2              TWDF
   August 2011(Current)                                       GSIT              NCT3.1                NCT4            LRD

                             GSIT   (Ground System Interface Test)
                                          Planned 

                             NCT    (NPP Compatibility Test)

                             TWDF   (2-week Data Flow Test)

                             LRD    (Launch Readiness Date)
                                                 Actual

  Source: OIG adaptation of NPP’s recent ground system test schedule history
Another factor that contributed to the schedule compression was the need to increase the duration
of tests in order to adequately stress the ground system as data flows through it. At two
comprehensive mission reviews in January and June 2011, NASA’s independent review team


                                                               6
 
U.S. Department of Commerce                                                                            Final Report 

Office of Inspector General                                                                      September 30, 2011 



recommended that the project put the ground system under stress with a minimum 2-week
continuous data flow test, longer if possible. The intent was to determine how the various
segments operated under load, where the system bottlenecks were, what conditions would trigger
data loss, and if any mitigating steps could be taken to prevent problems. It was clear that the
recommendation was focused on preparing to use NPP data operationally.
Responding to this recommendation and the need to retest some requirements and fixes to system
discrepancies that had not been fully tested, the project recently scheduled two additional tests
late in the mission schedule, including a 14-day data flow test. In order to leave room in the
schedule for a planned mission rehearsal, however, the test was scheduled for September 27 to
October 10, to be completed just 15 days before launch. Any system fixes required to mitigate
issues identified in these tests would accumulate with already scheduled post-launch ground
system work requests, which could delay the work necessary for post-launch data production.
Finally, NPP experienced test-readiness delays caused by the unpreparedness of certain external
systems. These systems interface with the ground system, and their ability to ingest satellite data
is part of NPP/JPSS mission requirements. Six weeks before NCT 3 part 2 occurred, the project
team learned that operationally configured versions of NOAA’s Comprehensive Large Array-
data Stewardship System (CLASS, which will archive NPP/JPSS data) and the NPOESS Data
Exploitation system (NDE, which will further process and distribute NPP/JPSS data to NOAA
users) would not be ready in time for the test. NOAA and NASA had to determine the effects of
using non-operationally configured versions of CLASS and NDE for NCT 3 part 2, as well as to
coordinate schedules for further test activity. The project later postponed NCT 4 to ensure
CLASS would have an operational version built in time to support that test. The postponement of
NCT 4 further compressed the NPP schedule.
During our field work, we observed that communications and coordination between NASA’s
NPP systems integration and test team and NOAA’s external system owners improved as the
stakeholders incorporated lessons learned from earlier tests into those that followed. Given the
ground system’s longstanding requirements to interface with and provide data to the external
systems, however, a broader, more inclusive systems engineering approach was needed at an
earlier point in the mission schedule. This will continue to be a challenge for the JPSS program
as the ground system evolves to support more satellites and include additional U.S. military and
international partners.

II.        NOAA Must Act to Minimize Expected Gap Between NPP and JPSS-1

NOAA is predicting a gap in the continuity of polar satellite data from the afternoon orbit
between NPP and JPSS-1. Our analysis suggests the expected gap decreased after the program
received additional funds through departmental reprogramming late in FY 2011 and the outlook
for FY 2012 funding improved. The expected gap remains significant, however, and will result
in degraded weather forecasts and a break in the climate record. NOAA’s process for
establishing the program’s operational baseline 8 was prolonged, resulting in uncertain life-cycle
                                                            
8
  An operational baseline is an operationally significant performance level between the threshold and objective that
is expected to be delivered by the program. Threshold refers to the minimally acceptable level of performance that
must be achieved, while objective represents a level above the threshold that would better meet user needs and is
realistically achievable with current technology. The system baseline refers to capabilities on contract.


                                                               7
 
U.S. Department of Commerce                                                                                                                  Final Report 

Office of Inspector General                                                                                                            September 30, 2011 



cost estimates and budget requirements during a period when decision makers needed clarity in
these areas.
A. Current Gap Analysis Indicates Improvement in Satellite Coverage, but a Significant
   Expected Gap Between NPP and JPSS-1 Remains
Based on the current FY 2011 funding level, NOAA expects a gap in weather and climate
observations between NPP’s end of life and the operational date of JPSS-l. A gap will result in a
lack of data, reducing the accuracy of weather forecasts and causing a break in data needed to
maintain a continuous climate record. Since our June memo, the JPSS program reported a total
of $109 million in additional FY 2011 funding. With increased funding also likely in FY 2012
and the launch date fixed at February 2017, we expect a gap between 9 and 21 months in length
(figure 3), an improvement over the expected 18-to-30-month gap we reported in our June
memo.
                          Figure 3. Potential Continuity Gaps in Afternoon Orbit
  Fiscal Year
   2009     2010   2011   2012    2013     2014    2015    2016     2017    2018     2019   2020    2021    2022     2023    2024    2025    2026     2027


              NOAA‐19

  Feb ‘09
                                                  NPP

                     Oct ‘11
                                                                                            JPSS‐1

                                                                  Feb‘17
                                                                                                                                    JPSS‐2

                                                                                                        Fall‘21
                    Satellite Launch Date
                    (Note: Actual launch date shown for NOAA-19, planned launch date for NPP, estimated launch date for JPSS-1 and JPSS-2)

                    Satellite Checkout Period - Planned time before all operational data available (6-18 month window)
                    Satellite Operational Period - Expected period to receive operational data from satellite based on design life
                    (Note: Some data is available during the satellite checkout period.)
                    Potential Continuity Gap - A gap in coverage could occur in the event of NOAA-19's early end-of-life, NPP launch delay, or an
                    extended checkout period for NPP post-launch. Potential gap between NPP and JPSS-1 is a minimum of 9 months based on 3 months
                    between end of NPP operations and JPSS-1 launch plus a 6 month checkout period

                    Maximum Continuity Gap - The gap between NPP and JPSS-1 would be 21 months if post-launch checkout extends to 18 months.
                    Actual gap, if any, depends on actual life of satellites, how well instruments are operating, as well as other factors (such as checkout)


  Source: OIG analysis of NOAA data, as of August 22, 2011

We used a launch date of February 2017—rather than the program's current projected launch
date in the first quarter FY 2017—due to continued budget uncertainty in FY 2012 and beyond,
which could delay acquisition and development activities. NOAA officials told us a 6-month
post-launch checkout period was necessary to achieve an interim operational capability to
produce the data records that are most important for numerical weather prediction. Other



                                                                               8
 
U.S. Department of Commerce                                                             Final Report 

Office of Inspector General                                                       September 30, 2011 



important data records would not be available to users until JPSS-1 instruments were fully
checked out, a process that could last considerably longer than 6 months.
In our analysis, we used a checkout period ranging from 6 months up to a possible 18 months to
achieve full operational capability. A checkout period of longer than 6 months is likely because
JPSS-1 instruments will have manufacturing changes from the models flown on NPP and, in all
probability, NPP will no longer be operational, leaving the JPSS-1 mission without a direct
means for comparison. The actual length of the gap will depend on a number of factors,
including the FY 2012 JPSS appropriation, how NOAA prioritizes user needs for national
weather and climate data, and the actual life span of the NPP spacecraft and instruments. The
NPP spacecraft was designed to last 5 years and carries enough fuel to last 7 years. However,
most of the NPP instruments were managed and developed under the NPOESS contract with
Northrop Grumman; the NPOESS program had limited government oversight and a history of
technical issues. As a result, NASA lacked technical oversight during instrument development,
manufacturing, and testing—creating uncertainty as to the instruments’ ability to operate as long
as the spacecraft’s design life.
We continue to identify a potential near-term gap between NOAA-19 (the current satellite) and
NPP. Such a gap would occur if NOAA-19 experiences an early end of life or instrument sensor
failure, the NPP launch is delayed, or the NPP satellite and instruments require an extended post-
launch checkout period before all data is operationally viable.
To assess the impacts of a gap in polar satellite data from the afternoon orbit, we interviewed
officials from the National Centers for Environmental Prediction (NCEP), 9 including its
Director. NCEP has completed five studies of significant weather events in which forecasts with
all available data were compared with forecasts that were denied data from afternoon orbit polar
satellites. Two of the case studies concluded that weather forecasts at 5, 4, and 3 days before the
event were significantly degraded without afternoon orbit data. At 2 and 1 days, other sources of
data (such as weather balloons) had more positive contributions to the forecast, reducing the
effects of the loss of afternoon orbit data. In the remaining three studies, the forecasts were
largely unchanged as other data sources provided critical atmospheric signals for those weather
events. NCEP officials concluded that the case studies, along with statistical studies of the
relative importance of various data sources in forecasting, underscore the need for continuity of
both afternoon and morning orbit polar satellite coverage. Forecasts at 3 days and beyond are
particularly reliant on polar satellite data, and the accuracy of forecasts of significant weather
events at these timeframes is crucial to protecting lives and property.
Anticipating a gap in data from the afternoon orbit, NCEP officials told us they have been
working with Defense to improve the data from its satellites in the early-morning orbit.
Additionally, NCEP is working to use data from NOAA’s next generation geostationary satellite,
which is currently scheduled to launch in October 2015; according to NOAA, however, the
National Weather Service does not believe this data would mitigate the loss of polar satellite data
from the afternoon orbit. Separately, NESDIS officials told us they were considering additional
international sources that may provide some compensating data, but currently there are no
alternative sources of afternoon orbit data beyond NPP. However, in our observations of

                                                            
9
    NCEP is an office within NOAA’s National Weather Service.


                                                               9
 
U.S. Department of Commerce                                                                           Final Report 

Office of Inspector General                                                                     September 30, 2011 



NOAA’s Program Management Council 10 meetings, there was little evidence that these efforts
were being tracked or coordinated across NOAA’s line offices.
B. Funding Challenges Restricted Acquisition and Development, Delayed Satellite Launch
   Dates, and Created the Expected Gap
When the transition from NPOESS to JPSS began in February 2010, the NPOESS contract,
managed by the Air Force Space and Missile Systems Center, was still funding the instruments
and ground system. The Air Force was required to set aside $84 million (half from the Air Force
and half from NOAA) in termination liability costs on the NPOESS contract for FY 2010. As a
result, the remaining FY 2010 NPOESS funds of approximately $682 million were inadequate to
support both the ongoing development work and necessary JPSS transition activities, which
included establishing the majority of NASA contracts, transitioning physical property to NASA
contracts, and fully staffing the JPSS program office as planned.
In early FY 2011, the JPSS program had some success establishing contracts for most of the
instruments, spacecraft, and ground system. But the series of continuing resolutions in FY 2011
that were enacted before Congress passed a full-year appropriation reduced funding—to
$382 million or 36 percent of the requested $1.061 billion—and persisted for most of the fiscal
year, limiting program startup activities. For example, NASA was unable to adequately execute
the newly established contracts, except for ground system development for NPP, because it
lacked funding to hire sufficient technical staff or order long-lead items (engineering,
development work, and parts needing a long lead time to be acquired or produced).
By the spring of 2011, the program began to predict a gap in polar satellite coverage in the
afternoon orbit stemming from projected delays in launch dates for JPSS-1 and JPSS-2 based on
various funding scenarios at levels below and up to the President’s budget request. NOAA
leadership communicated with Congress and the White House in an effort to restore funding and
get the program on track to minimize any gaps. 11 In the fourth quarter of FY 2011, Congress
approved an $89 million request that allowed the transfer of funds from other NOAA and Census
programs to JPSS. As of mid-August, the JPSS program reported a total of $109 million
(including the $89 million) was available, allowing work on JPSS-1 to commence.
The outlook for FY 2012 funding appears to have improved, with the report accompanying the
House of Representatives appropriations bill recommending $901 million for the program (84
percent of the request included in the President’s budget), although other NOAA programs will
experience cuts. 12 Despite the possible increase of JPSS funding, budget uncertainty is likely to
continue. NOAA, in its communications with Congress, the White House, and the Department,
should provide complete, objective and understandable data that illustrates the consequences of
limiting satellite and other programs that contribute to weather and climate prediction and have
national security and safety implications.
                                                            
10
   Chaired by NOAA’s Deputy Under Secretary for Operations, the Program Management Council convenes
monthly to assess programs’ and projects’ performance in terms of cost, schedule, and technical achievement.
11
   The Inspector General also identified funding as a risk to JPSS and noted a potential gap in continuity of NOAA’s
polar satellite program during testimony before the House Committee on Appropriations on February 9, 2011.
12
   The Commerce, Justice, Science, and Related Agencies Appropriations Act of 2012, H.R. 2596 112th Cong.
(2011), overall provides NOAA with just over $4.5 billion—$55 million below the FY 2011 NOAA appropriation.
H.R. REP. NO. 112-169 (2011) details recommended funding levels for several NOAA programs, including JPSS.


                                                               10
 
U.S. Department of Commerce                                                             Final Report 

Office of Inspector General                                                       September 30, 2011 



C. JPSS Program’s Baseline Capabilities, Costs, and Schedule Need to Be Finalized
Eighteen months after the decision to restructure NPOESS, NOAA had not formally approved
JPSS’ high-level performance requirements. Given that JPSS requirements derive predominantly
from legacy NPOESS requirements, the delay in defining an operational baseline for the system
left life-cycle cost estimates and resulting budget requirements uncertain longer than necessary,
at a time when decision makers needed certainty to address extraordinary fiscal challenges.
Life-cycle cost estimates for major programs are based upon user needs reflected in a formally
accepted requirements document. In order to be included in the FY 2011 President’s budget
request, however, the JPSS budget estimate of $11.9 billion (pre-FY 2010 through FY 2026) had
to be developed in a compressed timeframe without formally approved JPSS-specific
requirements.
In March 2010, NOAA formed a working group to establish JPSS requirements. But the process
was delayed because the requirements were dependent, in part, on the Air Force’s definition of
its polar satellite program, which did not take place until August 2010. Program officials told us
that further delays were due to the fact that stakeholders felt they did not have sufficient input
into the working group process; as a result, multiple iterations of the requirements document
were necessary to gain concurrence. While Defense observed and provided input on the
requirements, it was not a formal signatory to the high-level requirements document. NOAA
officials indicated that the delay in finalizing program requirements was independent of the
program’s funding shortfalls and budget uncertainty.
In June 2011, a contractor completed the cost analysis requirements description (CARD) with
near-final—but not formally approved—requirements. The CARD describes technical and
programmatic features of the program and will be used to develop formal life-cycle cost
estimates. According to program officials, aspects of JPSS omitted from the near-final version of
the requirements—specifically, the program’s responsibilities for supporting NOAA’s archiving
system—were nevertheless described in the CARD (typically, a program would have an
approved requirements document prior to the development of a CARD). The CARD was
supporting the development of an independent cost estimate and NOAA’s own estimate; the two
estimates would then be reconciled.
While formal life-cycle cost estimates were being developed, continued uncertainty over funding
spurred the program to task NASA with considering contingencies that prioritized some of the
most important requirements while maintaining a launch readiness date no later than February
2017. But JPSS should formally prioritize all of its requirements, not just the subset in this
contingency exercise, so that it can efficiently adjust the program’s performance capabilities or
launch dates, if needed, in response to year-to-year funding variances. In what will likely be a
prolonged period of budget uncertainty, fully prioritized requirements would allow decision
makers to readily make tradeoffs.
Further, the program should develop a plan to accommodate requirements that may have to be
removed or relaxed when annual funding falls short of the program’s budget but that could be
recouped in future appropriations. Officials told us that their general approach in response to
funding shortages would be to preserve spacecraft and instrument work at the expense of ground
system capability, which could later be restored with additional funding in future fiscal years.


                                                11
 
U.S. Department of Commerce                                                                    Final Report 

Office of Inspector General                                                              September 30, 2011 



Careful planning is necessary, however, to avoid a repeat of ground system delays in 2010 that
threatened to delay NPP’s launch (described in finding I above) and could affect the critical path
of future JPSS milestones.
III.       JPSS Program Needs to Overcome NPOESS-to-JPSS Transition-Related Challenges

While new satellites will be acquired for JPSS-1 (an NPP near-clone) and JPSS-2 (to be
competitively bid), with one exception the ground system and instruments that were already
under development for NPOESS have been transitioned to the restructured program. The
instruments will be delivered and integrated onto the new spacecraft, and the ground system will
support both JPSS (beginning with the NPP satellite) and the next generation of Defense
satellites.
A. Advanced Technology Microwave Sounder Contract Transition Was Delayed
While the instruments and ground system were under the NPOESS contract, the JPSS program
had to work through a cumbersome process with the Air Force to direct development. The
ground system, CrIS, and Ozone Mapping and Profiler Suite (OMPS) contracts were transitioned
in the fall of 2010 to NASA-awarded JPSS contracts, but the VIIRS transition was delayed until
April 2011 and the Advanced Technology Microwave Sounder (ATMS) remained under the
NPOESS contract, making NASA’s efforts to reduce these instruments’ residual risks from
NPOESS development more difficult.
As of mid-August, ATMS—built by Northrop Grumman Electronic Systems, a subsidiary of
NPOESS’ contractor, Northrop Grumman—remained on the NPOESS contract. Urgent changes
needed by the JPSS program had been submitted through the Air Force, but without a direct
contractual relationship the program had limited access to the contractors’ boards, meetings, and
data, and limited insight overall—problems that are reminiscent of those associated with
NPOESS. 13
ATMS will provide critical data to enable accurate weather forecasts, but negotiations for
transitioning the instrument had stalled. One factor complicating the transition was a dispute over
claimed interests in intellectual property. The dispute has taken new form and may result in
monetary relief being paid by the government.
As an alternative to transferring ATMS to a NASA contract, JPSS prepared for the possibility of
finishing and taking delivery of the instrument under the current NPOESS contract, if necessary.
In that case, ATMS would have been built to fly with the NPOESS satellite and NASA would
have then needed to modify the ATMS interface to fit JPSS-1. This approach would have
entailed more risk, but may have been necessary to avoid JPSS-1 schedule delays.




                                                            
13
  See for example, the following reports: U.S. Department of Commerce Office of Inspector General, May 2006,
Poor Management Oversight and Ineffective Incentives Leave NPOESS Program Well Over Budget and Behind
Schedule: OIG-17794; and United States Government Accountability Office, May 2010, Agencies Must Act Quickly
to Address Risks That Jeopardize the Continuity of Weather and Climate Data: GAO-10-558.


                                                               12
 
U.S. Department of Commerce                                                                            Final Report 

Office of Inspector General                                                                      September 30, 2011 



After we issued our draft report, NOAA reported that ATMS was transitioned to a NASA letter
contract 14 in September 2011.
B. Other Instrument Contracts Have Not Been Finalized
While NASA had transitioned most of the NPOESS instruments to NASA letter contracts, there
were delays in agreeing on final contract terms. NASA has reported that contract negotiations for
OMPS, VIIRS, and CrIS have taken longer than expected. Therefore, further changes needed for
instruments to conform to NASA standards and reduce risks could be delayed, with
consequences for the JPSS-1 mission.


Recommendations
To mitigate the risks of using NPP data operationally, we recommend that NESDIS’ Assistant
Administrator
       1.	 Determine the availability of additional resources to support calibration and validation.
       2.	 Ensure sufficient management oversight of communication and coordination between
           JPSS and NESDIS STAR.
       3.	 Determine the feasibility of establishing an alternate mission management center and an
           additional science data downlink for NPP as soon as possible.
To ensure the adequacy of JPSS development activities going forward, NOAA’s Deputy Under
Secretary for Operations should
       4.	 Maintain adequate oversight and awareness of all segments that could adversely affect
           the critical path to launch and timelines for post-launch data production. In particular, the
           Program Management Council should keep sufficient focus on ground system
           development to ensure it does not jeopardize the mission schedule and operational needs.
       5.	 Ensure that the planning and coordination necessary to meet mission objectives occurs
           between JPSS and external entities.
In order to sufficiently prepare for an expected gap in polar satellite data from the afternoon
orbit, NOAA’s Deputy Under Secretary for Operations should
       6.	 Coordinate efforts from across its line offices to minimize the degradation of weather and
           climate forecasting during gaps in coverage. A NOAA-wide view will help senior
           management ensure the adequacy of efforts and facilitate improvements.
In order to more efficiently manage the JPSS program under continued budget uncertainty,
NESDIS’ Assistant Administrator should


                                                            
14
 A letter contract is a written preliminary contract that authorizes the contractor to immediately begin
manufacturing supplies or performing services.


                                                               13
 
U.S. Department of Commerce                                                           Final Report 

Office of Inspector General                                                     September 30, 2011 



    7.	 Develop a mechanism that provides executive and legislative decision makers, on a
        recurring basis, complete, objective and understandable data that illustrates the
        consequences of limiting satellite observational capabilities.

    8.	 Prioritize all JPSS requirements (beyond those already prioritized in NASA’s
        contingency exercise) and develop a plan for requirements that could be relaxed or
        removed due to near-term funding constraints and added back in future years if funding is
        restored. Such a plan should include steps to manage uncertainty with at-risk
        requirements, such as maintaining contractual relationships during shortfalls or avoiding
        termination liability through appropriate contractual safeguards.
In order to complete the transition from NPOESS and move the JPSS program forward, NOAA’s
Deputy Under Secretary for Operations should
    9.	 Ensure that the JPSS program finalizes contracts with instrument vendors.


 




                                               14
 
U.S. Department of Commerce                                                                Final Report 

Office of Inspector General                                                          September 30, 2011 



                       Summary of NOAA Comments and OIG Response



In responding to our draft report, NOAA concurred with all of our recommendations. It also
included editorial comments and suggested factual and technical changes in regards to certain
aspects of our findings. See appendix B for the complete response.
OIG Response
We are pleased that NOAA concurred with all of our recommendations.
With regard to NOAA’s editorial comments about NPP and the ground system, we understand
the historical context of NPP as it relates to JPSS. While NPP was designed and built as a
research mission, it will be the only polar satellite in the afternoon orbit that can provide critical
observations for a significant period of time. So, in addition to its data, the NPP satellite and its
ground system will be used operationally and, therefore, risk should be assessed accordingly.
Further, our findings focus only on the most critical features the ground system lacks (an
alternate mission management center and additional science data downlinks) and for which it
would appear that mitigating action is appropriate.
Our discussion of the issues with CLASS and NDE test readiness simply related the fact that
coordination with these external entities is necessary to avoid negatively affecting the schedule
for ground system development. NOAA concurred with our recommendation 5 in this regard and
has established a monthly review of the development of the NESDIS enterprise required to
support JPSS.
We have reviewed all of NOAA’s recommended changes for factual and technical information
and incorporated them into the final report where appropriate. We acknowledge NOAA’s point
that the NPP spacecraft design life is a limiting factor but, as we describe in the report, so too are
the instruments. As further evidence on this point, we note that NASA’s requirements for NPP
call for only a subset of instruments to function for only 3 years and do not require long-term
production of key data records for the mission to be considered fully successful.
Regarding NOAA’s comments on our assessment of preparations for post-launch data
production, we have a firm basis for this aspect of our finding. The NPP team’s status reports to
management have reported STAR’s support for the JPSS ground system as an issue and indicate
communication problems and the fact that there was no agreement on the role for STAR with
respect to JPSS. We interviewed JPSS officials to confirm that communication and coordination
between the two entities was an issue that was having consequences for calibration and
validation preparations and needed management’s attention. NOAA agreed with our
recommendation 2 in this regard.
We have further substantiated our use of the February 2017 launch date for JPSS-1 under finding
II. We have also updated finding III to reflect that ATMS has been transitioned from NPOESS to
a NASA letter contract. The ATMS contract, like the other instrument contracts, will need to be
finalized to completely resolve the transition issues.




                                                  15
 
U.S. Department of Commerce                                                             Final Report 

Office of Inspector General                                                       September 30, 2011 



                      Appendix A: Objectives, Scope, and Methodology



Our objective was to determine the adequacy of the Joint Polar Satellite System’s (JPSS’)
development activities intended to maintain continuity of weather forecast and climate data
obtained from polar orbit. As part of this objective, we determined the completeness of technical
approaches used in developing and testing the flight and ground project segments; assessed the
impacts of development modifications and project risks on JPSS’ cost, schedule, and technical
performance; and determined the adequacy of preparations for post-launch data production.
One focus of our fieldwork included those activities needed for the National Polar-orbiting
Operational Environmental Satellite System (NPOESS) Preparatory Project (NPP) launch. In
particular, we examined the ground system/satellite compatibility tests and the resolution of the
ground system issues we initially identified in our audit survey work. Another focus was at the
JPSS programmatic level, where transition- and funding-related challenges threatened to delay
JPSS-1 and JPSS-2 satellites’ launch readiness dates and lead to gaps in polar satellite coverage.
The audit scope necessarily included a review of NPOESS history, including its restructuring
into separate civilian and defense programs that began in late 2009 and became official in
February 2010. Even prior to our audit survey work, we regularly attended monthly Transition
Team meetings, which began in February 2010 and continued through April 2011.
Our fieldwork included attending various Department, National Oceanic and Atmospheric
Administration (NOAA), JPSS program, and NPP project reviews, such as

   •	 Department of Commerce Quarterly Satellite Briefing and Joint Review Board;

   •	 NOAA Program Management Council;

   •	 National Aeronautics and Space Administration (NASA) Goddard Space Flight Center
      monthly status reviews;

   •	 JPSS Transition Team and Requirements Working Group;

   •	 the JPSS program concept review;

   •	 monthly ground system program management reviews;

   •	 NPP test readiness reviews for NPP compatibility test (NCT) 3 parts 1 and 2, and NCT 4;

   •	 post-NCT after-action reviews;

   •	 an NPP flight operations review; and

   •	 an algorithm operability verification review.
We closely observed NCT 3 parts 1 and 2, and attended preparation meetings for NCT 4. We
reviewed daily and weekly status reports of NPP’s project team, including those pertaining to
satellite environmental testing and discrepancy resolution.



                                                16
 
U.S. Department of Commerce                                                            Final Report 

Office of Inspector General                                                      September 30, 2011 



In addition, we interviewed various JPSS program officials and individuals from NASA’s NPP
team. We also interviewed NOAA officials from the National Environmental Satellite, Data, and
Information Service/NPOESS Data Exploitation and the National Centers for Environmental
Prediction. We reviewed and analyzed program documentation, test plans and procedures, test
reports, and system discrepancy reports. We determined the data was sufficiently reliable for
purposes of this report.
We conducted our fieldwork from November 2010 through August 2011. Locations we visited
include NOAA headquarters in Silver Spring, Maryland; the JPSS program office in Lanham,
Maryland; the NOAA Satellite Operations Facility, in Suitland, Maryland; Raytheon’s facility in
Aurora, Colorado; Ball Aerospace Technology Corporation’s facility in Boulder, Colorado
(where the NPP satellite was integrated and tested); and NCEP headquarters in Camp Springs,
Maryland.
We performed this audit under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




 




                                                17
 
U.S. Department of Commerce                                                                                                                        Final Report 

Office of Inspector General                                                                                                                  September 30, 2011 



                               Appendix B: Response to OIG’s Draft Report



                                                                        UNITaiiWTAT'. . a•Paft'Tllll_-y CW COIII•~c
                                                                        illi•t•-•J       O.:....MI _,.. A..._,.piHt_..t.c. A•Mtlt••...__.....
                                                                          H!Ef AOMIIII TRATI                      Fr:l I R


          s..>ptt.'mh« 2o. "ttl I

                                              Allen ('mwl.:!~
                                              A'-:-l:.l.1lll JllS('C'Ctur (;encnd fnr ~!t'lem Atquhirmn ~tnd


          tR0\1
                                              ;I{~.?~~-··
                                              'w1 ll iam F Brvgli~:
                                               NOAA C'hu~f <lnllni 1                 '~   Offi,c:r

                                              Dnaft CJIG R.:JlC'Ii            fudit<~[lha• JvmJ      l'o1/ar Stlt••llttt! ·') wm
                                              C lt.~lll'n):t'.~ ,\/uu   Bt•   Mt•l 111   %tmrrm:t•   (r<lpl 111 l'nlur   I m·lr"''m,•rrlul
                                              Satdllr.• Oaru


          Tiunlo. ~,,u lur th.: ilf!po.•nunily 10 .:onunenJ,•n Lhc O!licc ofii'K! l n~-p.:.:lc>r (,~ncml'~ llmfL .rt.!pvrt
          of ll!'i rt"\ i~ n r th..: Jolntl'.,lar S.atclhlc 'i)':.l e111 prugnam Our ~J¥!'!1 fie CClnun.:nLs on the rcpo.lrt ''
          li n..ti ngs ;mJ n....:om,11cnd.11 it•n- o.JN n.a.:ht..'t!

          \tLOChmclll




 


                                                                                  18
 
U.S. Department of Commerce                                                                                                                Final Report 

Office of Inspector General                                                                                                          September 30, 2011 





                                                  Dcparlmt<JH or CODlDl~n:f:
                                     "•lional O"eank: •od Al n~pberk 1\dmJnlnntlon
                                         Comn:w~ts on. th~: l>n.ft OJC KefM!rl l=:ntitJed
                                ~   udll oftbt Joint. Pol111rSatelllto: S))ttm: Challtoges Mu51
                            Be Met lo 1\Unimin C•;Jl'l In Polar En,ir11nmental Sa.lellile Data.·
                                               ([bart RC'fMlrl SqJI('mbcr 12, 20 I ')




           llu: D..:p.utmo:nlllf Commercc'l' N:Uionlll Oaanic and AlmoS)lhc:nc i\dmanistrotmn CNOA •\)
           lf'f'm:IIIICS the opJ'Ilr1llnll)' lo rc'\'IC\\ the Ol'fit'C oF Inspector (Jmc::rnt"..; jO lG) draft l"q!!rt Oil the
           J"mt Pul:tr !o>atdhtc S)'~t.:nt (Jf'SS). As "I11Ltxl in the: OIG n:pon. tb.: Nllion.d Pul~~r-urbitmg
           OperatN\J.I l-.nYmmlnf..-ntal S.J!dhte S)~lcrn (NPOESS) l"rcp.vatory I'ro)cct {NrPJ r"'min on
           lrud; tu IJuoch m Octoba- 2UI I. bulthc::n: an: "til l! sn·cml n!lk~ ...-uh the rroJect n1c tindmgs
           pcrutning to JPSS and the: PP mi,.~1on arc: l!crUJ'Blcl)' pon:mycd 1n thor wpaclly liiS a 'OAA
           llpl.!r.UII'IIIml In I s~ion lnd I NILI..iona.l Ac:roobuh..:s ..00 s~ AdnunlS(ruLiOfl {NASA} ~h
           mr-...ion. rcsp«:tiu:ly, Ho"'C\'Cf, the rtpt'rl (ocus.cs !il"'it on Lhc dC'-~Iop1ncnt o f th.c ground
           "Y"'~;~nli•r NPP wul uffc:n. findmg,s dun p~ppcl!>ethc {!fOUnd s~'lil.cm1s an operal.lcMI s~"lc:m
           \\-lk:n. 1n lxl, 11 wa"' 0\,"\'o:t rlillln<ld tube. The ri!)JOI1-.bould describe the dtadopm.:nt of the
           gr<~und 5)~t."'ll 11.~ an ~qu isitioo Jlt'"\"ICC'i.'\ ~-ht-.sc g. ...1 i a full> 11pcr11t•onlll syslcm ln ume for
           Jf"iS h~ fiKill rc:or ~FY) 2017.




            R~cu mm~ndatio.n        I   ''Dcu:nmn~   1he B\ IJI.ol-1lrty oflll.l<fJIJon.tl m:.14.1re'.CS to supporl   t<~libnotion
           and 'lllidllllon ~

           '\0.\•\ R~poD,<' NOAA C('['lal:rs with thi.s rc~ommcnd:nion. 'OAA will rc'\1CW cum::nt
           uhbrauon,.aJ idlltlon plnn nnd ensure data rcquu~l lor Numcm:al \\'~1 Pt...Uict10n 1111\1 Kc}
           Pcrfomu.ncc: Paramt."lcn~ ~re \i!lrd!ltcd !Uf ope:rn!Jon:ll usc 411 a pnont~ . In ooditton. I'CSOOI'Cel.
           rcc.twr.xl ro C••mplcu: all caltbrnhon ·val1dalton \liork ~1thm I!I momhs \\'111 br:: Jdcnnlit'(L 1\0AA
           hns nl ~y idc::n11 iicd S7 mdlrcn In addiliona.l Fl' 2() 12 fuod~ for ~:ahbrouoo and \<aiJdlllJon
           (ldJ\ltn.'l>.


            Rl"CODinltmcbtlon 1- "'En,qun: :rufticrcnl       m.1~gcmcnt       O\crsight "fcommuni~:ttton and
           coordm311!'n bct'-•ecn J£'SS ;u-rd NI:::SDIS STAR."'

           .NOA \ Rr<ipOll,e: NOAA ..:oneu~ \' 1Lh tins n:c<~mmendotmn. A '>igncd M.:mogt:mcnt C011trol
           l'l.m h..."w'-"-'11 NOAA mtd NASA w1ll ~lp to art iculate mlc~ and m;l'\m~ibdit r es b.;1"cen the ~o
           or~l!I0171ll ions In .rdd1tioo, NOAA 1s urukrti!ILi ng t\\O OC'tJOII'i ru impru\1:: et~<!n.hnlltltn'1111ld
           ,;I.Jlnmurucalmn, , Fil"t. an i\ll,"'nthm Transtuon PI:.Jn t!' IJcing develt•pOO to l'utline rulc:<t lllid
           rcsronsibLhti~~ ilnd t'\'~Ulll tfm..;terof~pcm~ ibilihl!:!l for ,dgi.mlhm de\dopn'lml. millnlrn:Ull:l!.
           ond ~lib111tlon and \a.lid.JJJ''" wortc Sccood, 1 Jrss Coordin.Jilon Gruup, \lo11h n.:pn:~.euwtton
           lh1m STAR, olhl•r NESDTS hnc (llliCClllmd key u<>cr communili<l.' is tieing e!ltohlisbcd hl
           fiKl hlllte mmmumcution.~ lltllflng the Vllno~ ~Wlcholdcn




 




                                                                          19
 
U.S. Department of Commerce                                                                                                             Final Report 

Office of Inspector General                                                                                                       September 30, 2011 





            Rn-omnwndatlon .l ••l)dcnmnc lhc rcasthihty ofe"tnhliming an alternate mi~"IPn
            manallcment center and ~n ochhtionnl ~encr d;1ta dtt\\n hnl for 7-o~PI) as: c;oon :u r<'""ible."

            '10 \ ,\ Re1pon ~· f\OAA ~ncUTS with thil> recomml!lldahon. ~OAA tub :t.lmM!y M.t:rtcJ 1t1
            acldr~"    lhcsc 1S.S.ue S~-cJfically, lwoconcuni!IIL eni.u1s arl! undcwuy to addr.:~ lllC' need for
            un aii(TTI~tc rrnssion management center as well as an alternate dam proc:c:s.<:mg !'llc. An
            •\ho.:mtlt>! Comnll,)n Grt.•tmd S;,'\lcn1 W(•rlung Gn•up oompri:o.mg NOAA A!'ld NASA
            r.:p~ttl.Jll\'e. h.I.S DcL'O L.,.l:thh~h...'(llll Jdcnllty I h.; rtqulrL'mc:rtt.' J.Od plao for .m alt.:rruue
            pi\JCCSMng laclllt)' fQ.JUJrcd by ~1ST !IOO-S3 ln addJLion. JPSS has tundal tl1c N~SDIS C'IO's
            l>IV1"11ln lo anin:rte 11 study lo Identify tt .,Jie for 11 'lESDIS con.~hdmed bac.kup fact lit) to llddres!i
            nC\.'<ls for GOES· R. JPSS and current tlflmlllOns.

            Rec.-ommtndJition " ' ul\.Limuun ad""!U.JIC pvcr.ish• ond            IIW<J.rmc:">S nf all !>I:'SITll!nl~ lhJl could
            lilht:noel) rlffcct lh..: l'ritu:al r.llh to launch ond     llmdm~  fM po,t-launch data produ~·tt!ln . In
            pJJ'Ii..:ul.u.. tl-u~ l'rugrom 1\lan:t!).."t::Onl Couooil should k~'P suffictent tbcu.s on pound sysh..m
            de"'citJrmctll 1~1 l:nl>We II d~ llol!CUJ'.ln.ll1.f~ lhe DllS!>JOn M:h.cdul~ Wld O~r"o.lhU!'I..IJ DCcJ!.."

            'JOAA Rro,pon'l:e; ~OAA CXIncurs wnll th1s rccommcnda11on.

            N«ommc:ndlltion 5: .. Ensure th:ltlhc pkmnm~ u.nJ ~:oordi n.li ion nc:ccss...rry to mc:ct rni!.:<;ion
            (lbJC\.'11\Cs uc;;uJll hdwl"<:ll Jr~~ 1md eottcmal m1111c-."

            )li0AA R e~pon t . =--oAA amcurs \\ith lhi.!l recommend~! ion. 'lESDIS has c~tablisttoo a
            mnnthl} '>lalw.r~:~l"""~ tblll w1l11L!\ 1.:w lhr de\ dupmcnt of the NESDIS cn1erpn:.c ri!LJUinl(llu
            ~upp..111
                 JI'S!, ltncludmg the dt\'dUpmcnt of NDE:l Thi" mfonnatton I'> 11l<i0 pru' idcd lo tile
            NOAA Pm(.!l'am MEU1i.!gcmcnl {\;uncal '-'hich " til cun~do cll'«.1s onl.h.c NOAA cnlcqm~

            Rtt'UhlDIHid.. rion     6; ''Crordm:atc cflono;; rr.lm iJCID~'> 11'1 line (lffit:C'l to mmtmizc the
            dt~raclulltln   of wc-,,ihcr ond cJmmtc lon:c<~sting during gnps in oo"cro.gc. A N'OAl\-~ide '1cw
            \\-Ill hcJ p 'entnT nl nagcll'M::nl ensure !.h.= adequacy ul' efforts a11d faci) itale [mpro ~ emenl.s "

            NOAA Respon'!e; NOAA ooncurs \\ ith thl' recomnn:ndatJon.

            RMonmutndation. 7 ...Do.:\ dopa m~,..-ch:lJ1i~m thlll providt..~ ox.c:c;uti.. u wkl lcgi,latt"c dct.h1on
            nukero:, Orl4 1'\.'C\Imilg b:ts1s. complete. obji."CU\ c and Wlderst.a.ndable dau 11\llltllu..&nLte..-. lite
            t'OflstqucncC'i (lflimlllng ~~:~u:lhte •*'!it'l"\•al101l.II c:.upablhbl!$."

            NOAA        R~o-sp.~ru~·   NOAA l."'ncurs with       rec\lmmcndauun NOAA alrl:ildy pnl\uJt.-,;
                                                                th1!>

            mumhly nd ontuart.crb·          hnclir~g,"'lo !he
                                                            [kp.1rlrncnt ofC"Ilnlmerec, F~cc:u1r\c Office ftflhc
            Pre~1dcn1 office!~, ;md t.:ey CPngrc'lsiOMI oommillcc 'ltalfcrc on the o;tatuiS of itS :.atclhtcs
            Jmli,'rBm!O. Thc..c brictingll can be c~panded to include objed:i\e and unde1'St.i111dable d:ua
            llluMrutmg lhe o.:lmc;.cqumccs nfltmttmg :1lell lle obS(."''\'IIUOfllll C".tp:tbilillo J.n prepanhon ror
            thao; cffi>rt. N01\A has altc:uly <:~m1m1~'it>ned a ~tudy out uf tl'i Pn•a;r.rm. Pla1ming and
            lntcgrution llfl'ice to c\a.luale the ocollt'lml.: \;1lue of JPSS d.Jia_




 




                                                                         20
 
U.S. Department of Commerce                                                                                                          Final Report 

Office of Inspector General                                                                                                    September 30, 2011 





            Rtc'Omm4'ndation 8; "Prrontw: all JPSS rcJquarem~nb (OO>ond thn!oe already pnonti/.~ rn
            \lAS A·~ ~"<1111tn~~"nC:) c.ten:ise) and deo.dop a plm lur rc:quirements thai c•mlll bt: n:laxc:t.l n..­
            ranovcd due fll n~:.tr-lcnTI furuhng con:o.lnunt!> 11nd added b.<ck 111 luture ye.JB rf 1\.rndmg 1s
            I'C"Wn:d Sucfl1 pl11n 'iMUld mdude ~tcp-. lo man:~gc uncertainty w1th nl-n"k n:qum:menl'l, .,uch
            a.~ m:tinuun•n~: (l('lflllliCfu.tl rc:lutton,.hlfrl during <ihonfull" or avoiding tcnmrmt1on hahihty
            lhrou ~ apprnpri ale c:ontroclual safeguard ."

            '10,\J\. R~po•ne NOAA coneurs \\ uh tht~ r~otnrnentl..tlion_ ~OAA l'l.l!l :llrG\dy rdct~hlied lhe
            need to n:c:rutl atldJliOn.:il .S)'~tml cngrntrnng !<tan to B~J:<.t 10 the: m<lnagcmcnlllfrt!- JI'SS
            r.·quirerru:nt-. \lOA A h;J~ I! ngo!Tiu~ prote'i~ fpr cnlh:cung and vllltdallng the ~1uircmcnh
            llcrt'""   trn:
                          ' OAA lim: olft~.;c,lc:d by the NOAA Ollice o f Tc:~:nnic11l Jllanmng unJ lnto.:grlllr<\n for
            Ob,crv<~llon (l?IO). NESDIS hu b.:gw; It\ enga~e T f-'1 0 tv furt~r prmnliic the ~'tjmn.'mcrrL'
            ti.or JPSS

            Rm>mmr-nd•1ion 9 "Wt1rk:' \\ nh lhc Arr f(lrcc ~tnd other IJMIIIICS to e:<l'C'dmou~l)' rransfer lh.:
             \ TMS ctmtmct 1o NASA und NOA '\. Sltould th.e "fine h. nnd dell\-ef' option become necc<&ll'}',
            NOA \ '"'Program M.1.rugcmem rouncil should ensure th:lt on ad~lr.ll<: m k annly'il<~ ha'i bc:Q'I
            pL"ff"nm:d lo t:ru.w~o: mi'llJtlD 'itl.:ccs.~. 113 fcty, .and a.,.oil.l:anct- of 00~1 overruns··

            :'IIOAA Ropoonu NOAA ~:.cmcu~ ~·rth thi!> f\'COIDmenll..r.uon, lbc ATMS contrncl h.as ttl~..t.Jy
            hcc:n lmn,llioncd to • ASA c:onl ~l. pUNiillll ru "n lntc:r.sgcncy A~nau b.:t"'c=m 'I:OAA
            3111.1   ~.\~A-


            Rt.-rommencbtlon 10: "Fuuhze cuntmru With ino,lrumcnt "cnd~\f'i."

            'lO \A. RnpiiD\c:         ~OAA CODCUJ"i v.ilh         thL'i l'"etOmmand:llion The errs. 0\fPS and JJlSS.I
            !<Jl'lcecratl contr8CL' ure .:xp;:cll."ll be liroli'cd by the end of~rranlxr The \'!IRS wntrac11~
            L'1fl:C1cd   tor Jdnuln') :!0 ll.


            Pr1g(' ~• .sn-onJ puraJfrapll
            The dc!iign hfc of' the f'\PP mslrUmcnl~ 1!<1 7 )~rs, but the s~raft i~dcs1gncd lt,r 5 years of
            upcl'lltiuns. whJch ,,. the hmau ng f!\\."tllr. Tbc rupon !ihnuld clearly sante t.hjs dttfererrce.

            l'tJI{f! ~. tlurJ f1<Utiflruph. tirsl .ff'tllt'nn."
            The: JP<iS-I1>p.~rafl w1ll he 11 "nt:;u-clv n~"of NPP In .sd.dihon lo more ngorous enll'inc:cnng
            "Liilnd.mJ.,, whrch Will ~tend 11 hfc: to '>C:\oen )t:a~. 1l wdlJll'lnet: ob!;olt~c: sub-5}'Slcm<; and
            mtrodua: additional commumcnnoo cap11bih1Jes ~ch 0!1 ~ Ko-booo downhnt

            Pug<' ~. llurJ P<Jftl!{l'aph . .f<'COIIJ ~t'111rttcc:
            The lbsuruf>IIIHl.~ hchrnd lhc rcport"o; .rsscrtron ofllle FebJ'llllry :!017 l.aunch date li>r JJlSS-J
            sllould ~ rdcnhficd. <>pccificlllly, the funuin~ .....,umptsuns, that NOAA mu,.t re~r\~ the: V
            .201.2 l'reildcnl'~ Bu.dgd Rcques1 funding lc'd forJ I"SS v.rthin !he fiAt qu:mcr ofl 't 20 12 to
            n~ainuu.u u lin.Lqlt.l.l1rf fY 101 7 llllllldl readu1as duu~, a.-..'UCJiiiCll.l "itb the l11unch dl!ll:"i shnuld
            l-Ie h~tcd o£ loutnoto.L \lOA A 1\a:. not .!.el 1 "No-Lata-Th.m" datc.




 




                                                                          21
 
U.S. Department of Commerce                                                                                                             Final Report 

Office of Inspector General                                                                                                       September 30, 2011 





            Ptlgt.' "· .\l"t'(lllll f"ll UJ<iilph. llu'tJ ,, -nf('PfCL'
            The sentence 1h111 'IIJtC.\. ''r\ sitrtilicJnf nUJn~-r uf 111hc:r d:na.1l:Wf\l ~. oowc\TT, w•ll not t.e
            ~upPf>rtcJ unl tl n ground )'tcm uppc, which i planned fiu MllfCh 2012'' is mi~lcading ll
            !hould be rno.nlli,."'l !11 ·'Lo"'cr (monl.)' products v. iiJ hinc thctr known dcfkU..TICIC:. ootl r~,,_oJ In
            the lir-.1 Up~rltl.lt: IOlhC !\fUUild ifo)'~tltlll. V.bU,:h 1!!. llOV. ph1nnlld for Jl.iw\.11 :!OJ 2."

            Pr.tRt' 4, rhu.lpt.trJJlf(lflh :
            ~i'lAR r.:t:c" 1.-d 3Pflr\l'tmalcl) half ot' lhe fundmg requcstt.-d for JflSS l'b e (<~hbrutton 11nd
            \ ahdatu.m (Cat/Val) fW'Og.rom requared uprraxim~el> $30 n1illion tu romph:h!. yc1onl} re..-ei\·ed
            S D rrulht•n J\1 the end ofFY 201 I. 11n itddinonol $7 milltPn w~tsrecc:Jvc:d, bul only S4 tmlhon
            ~·,uhJ be 11hh~h:d dill: lf1 th~ Lihl minute: receipt ofth.: funJ..,. Prior to FY :!011 fundm~ i 'I.IC'>,
            in1en. i\c r;tl\'t~J i'Pr all pmdu1,1' \HIS c,;pc:cu:d to lake 24 monlh prior. Cnttc.1l lunding
            rc:qum:d tu m.um.t.in !tcliedule wilL' nut r<K>ei\<t'tl imd lh~ 11moun1 of tim~ rtet!dc:d to fully \J.Iul.n~:
            no!\ extended p::~.st 2J ml'nlhs for low pnorit) [lroducts. The: addJtlonol funding rccc&\ cd in late
            F\' 201 I wns an-.utliocnl lll r«!o\er SGh.cd ulc. It thd nt1Wt"\~,11llo~~ lor STAR 10 =liPrc:
            pt:rSilnnd loward ratuestcJ FY 20 1I levels to ass1st tn trans111on actl\1tlilS tn fall 201 1 rather
            lhan spnn~ :!01:! fnr hagh pnnrity Systcn Ddinitinn Rc\1~"" !cam"

            Stalcmcnt-, llc-.critling the: nl1c of STAR '"!thin the Jl'SS NPP proJ,'l':lm and the <;t~ppo~
            .:,ammunicrnHin llnd ooonllnanon challenges nre not bas.ed on a dlorough asscssrocnL To our
            krl(.l\\ IC\.1~.:. nv STAR pa!>.On or r.:spnns1blc utlkc: .... ill> t:"cr ml~lc"Clll for th i~ r.:port.

            f•u~. J, {irslf"JillJI,TIIpll
            The ..,pcofic ~'Uinemtllhties oflh~ JPSS croWld l>)'Slc.-m .should not be pubhci~i.!d. Openl y ~ta1iog
            tlmtlhc: ll S. ~c:iltht."t futecil!l.ttng t:ap.tbllity t;lln be: s~wcn:ly dq;,ndal by oltudmg one: oflit"oc:rnl
            l'f'C\-,Iic fpCJiittcs IC<~ves the facilities open to compromise. The Depanmcnt ofDefen.~e treats
            mmtlnr mformahon rc:gardmg.lhdr .)"'lcm!lllT th~: hag.lw~llt:\'d ofdiL-...,ificauon. Rt.'l:.,mmcnd
            11141 Ill&~ topic b.! lrat.:d more ~:;cnencall) wi llloulthc mcnltOtl of . p;..'Cific facJitliC:. and their
            ltloCHI!Otl~


            Pa.l!~ li,Jir.q pamgraph ·         Pagr. 11, scmnJ, 11t1rJ. }IIIII. <L\llt, aruJ   rt•~c•nll• parugta(lltf; /J(}Kl'   14,
            f(<'rJIJd f'.U'Jik,faplt:
            Please ~ubstarute tho.: word "mm.o~iuon" l{lr the word ""lrnn~ti:r'' whcnc\ ~:r rcfcrnng In the
            lramna«n ol ~'\Jt.cnnlmt:l'lln the: JPSS program fhc m trvrn~o.'lll .md IU'•un<l '>)Riem
            subcontntctor<~ "'ere R•" 'l.run$fem:d" frnm the NPOCS.."' cunlro~t The \\OTk w11.~ utmsatl<med to
            111.."~ Nt\SA letlc:r ~n tract' \1J .t h:nninalinn fuT con\ ~o.'lltcnc~: aa.:IJon.

            /'(}ge 7. lhirJ paragraph. lin~ J
            The \\Ord " Dille'' should be n.'tll.J.ced \\t lh the wonl"DIIIi.l."

            Paf{r .H. ltorond partl1{1"t1ph. scnmd .!irnlt:nc'C:
             T'he fll'\•gr.tm has re~:ncd St<9.7 m1 ll mn m PddiiJonJI fY 201 1 fund~ no1 ~ I ()') million There
            ~~en: unc-~pcnc.lw     funds on the NrOESS contract which an: tJcins u....OO lo fund limi ted ncti~ il)
            \ tiltht lJ.S Atr Fo~e - thi"' activit)' ts C)(poctcd lv e11d in FY 2012




 




                                                                         22
 
U.S. Department of Commerce                                                                                                   Final Report 

Office of Inspector General                                                                                             September 30, 2011 





            l'ag~ .'?. teamd pctmf(mph fourth vmft'ncr U11d rftroswhmll r.r{'flrt a~ nppmpritrlo''
            The pro!!fll.m'" cum:nl plarb are lo launch JPSS.J in Qu:u1er 1 fY 2017. rotLhlll' tl1anlh~: F..:hnM['}
            :!UJ 7 dale hSlOO ln !he l'l'JI(W1 . rhi..>re :'Ire <;C>cral lllhlT lc'K:Uhi!O>; In mi-. repc!lt Where lbe la.unch
            dole as mt"-"laH:d. When dull. change t!l made, the c~J)CI:tod gup ustng the OIG mC'Ioodology
            (tts~wmn!! NPP opcnt1e:o thruu!ll•tt.:.lhe-)ear de:s1gn hfe und a6-l R mo nlh C..t.l .Val pcrioJ li.lr
            JrSS-11 ~ould be 6al~ months.. r:ul'~o~.:r thun l.he 9-21 mCJntho; lhc repon 'llales

            Puec 8, ffl!w<' 3
            rn~ figun: 'h(luld ~hnw the launch Jatc of JPS -1 tL'< Qumcr I FY 2017 nnd mnkc: the H\!'II)Cillt~
            changes w !be a.nalysis of the lcnf.rth of the !!BP·

            PUt(('   i\.   Flf{l<ft'   J
            The c.1u~tm~ P~e 8, F1gu:re 3 chmficallon should be replaced v.'!th the fo llo\\in~:
            The ~lc: of the ch11rt i'I)Oth<:lc:d as fi~al year and lho lrinnglt JtiUTICh dare~ nrc: placed oom:c;ly
            f,,r li'l4-al }'-:ar. but the J:.bds umll-mc.tth are li:sted m caknd.tr y~r Usi:ng tfle ti~c.~l ~c.tr ,c;llc,
            l'\OAA· l <I lounch should be tdcniJiicd as "02 FY 2009." NrP shou ld be "Q I FY 201:!," JPSS· I
            <~h11Uld l'k: "Ql FY .20 11: Jnd JPSS-2 )houiLIIJe "Ql rY .!022."


            I'rig<' V, lusr pamgnlph
            llle rqx.n implics lhall:co<ilation.ll) ~>atdli t e dOJta could millgJie the 1mpao:t of 3 NrP-JPSS d;:rttt
            g;lll for global polar-orbiting datil~ Tile Notional \\eamer Scr.·ioe does not belie\c such
            Mlllgalu>nt~ rc:<1li\t11.:


            f'rl,l!<' I J, .~c·rond p,1ragruph, R' t:llrrJ St'tUl' 1fCY.
            It a::. llL'CUflll~ thul th\: FY 201 I buLI~d ho~d tv be de\--c!opcd
                                                                             111 a wmprc~l.'d lanlc·tram~ hu\\.c\>\.1'.
            11 wa~ nnl de\!cloped 1\llltOJJJ JPSS·specifi.e requirem.ents, 11 was d~·eloped Without ha\1ng the
            tnnc to rrorerly C"Uma1e tlw linondalmtpacl ot JPSS""'pocilic roqu1remcnL<~

            Pa~?"e II \ 1-'fth fX'"Of!fraplr. second l~fiiCIICC' •
            To dan f) Ihe ~trucmcni 11 !ooould n;ud "" pr~""l:f\C ~piletefllll 1111d 111\lrumtnl work at the:
            C\pc.tl~ or wuund S}~l eRl t'upubllay". NOAA apprecJalo the t:Uilent ~late of the ground sy~tem
            und \\all oot thn:alm tts further de'~clopmcnt.

            f'•H!<" 12. S(!Cortd pan1Rruph tmd &x•t1on A and !>~l·t'ralolht:c 5ct:Iwns thro11~haw I he rtj'Orl
            The '' 1 MS '""lnlmcnt has ]:)c(;n lnm~itl<lncd to ,...A$1\ - the n:port       ~hould   be LfJxlottcd to rdlccl
            lh   nc~\ ~1'1111'


            F:d!toria! Cgmmen)1

            Page !   ,{t'COIIJ para1{rt.lplt, Puge 4. Fi;ulmJ: I tutJ fur the rcmt.JuJdcr of tile docunr.'111.
            NI'Jl \\all be !.lUnched h)· NASA a:o; :~NASA mi""lnn, milna.god hy1tH:: NASA \tndd~trd ~pace
            Fh.:hl C'cllleli', and willhucr he: transfcm:d Ill NOAA ior opcrallon from NOAA·~ S;Jtt:llnc
            OplTutinn~         Fncilily INSOF). NOAA intends toLL~ Nf'P's dam OJl'.ToltlonJ.lly for shoTt ond lon~t­
            rrnn v.cnthcr fllf\X.aqung 11nd cn\•mnmc~:ntlll Rlutli1nnng NrP '' noi an operfttion.al -.ntellile n<~r
            is the sruuriJ :t)'!>ll.'m a!> bLJill for NPP.




 




                                                                           23
 
U.S. Department of Commerce                                                                                              Final Report 

Office of Inspector General                                                                                        September 30, 2011 





             ~s 1\PP \\ '> o. n~;;k-rcdu.ction mission nnd wnsistent with plans coordinated wnh the TPO. NDE
            and CLASS '-"t:re 11Clt M:bcduh:d lo llli\ c operational \'ersions of their systems in place prior to
            hn.uxh ll "'as lll~~·ny<~ plrumctlto have thc;:.<;c cup;sbihliC'i iru;tallcc.l after launch. The upgntdC'> co
            ~vpport NC I tcstln~ were made tn ·respon..~ to requc...u from the ' PJ> prt1Jel:l
            G•vcn Ihe: ground system de,.clopment in prep::u·ahon for 1hc launclt of N11 11 does nol roqum: all
            of the elerncnlb uf an tlpcrallonal ground '>)Stem nor WI:Jl: there Jlhln'i lO tmplt:ment the .:lcncnb
            of an opcrnti1•n:~l GJ('und 'ly.tcm; \IESDIS rccommemls that all di~ocuss:ion ofimplementing
            clt.-ments u. '>Oei:u~ \\ ilh n opcralional ground S)'!lh.-m be deleted.

            Further discuS!>ion nbouJ the variouc; pht!!>~ uflcs.tmg ollhc: 'I.IPP ground s)-stcm (e.g.., 1\CD pm
            I) should j,e con!>.oliJatcd .md ~umn..ariT.c:d ti•r thh fqlllr'l. The finding SC:Cil'\ll, to he lt''>l II\ the:
            Uctall"' t1f this • ectiun arnl \\ ould be b.:U.:r l>CI'VCd if dCl.Cribc:d m lhc \.1!Jnl!.!'i.t of lh~: COmph:l(
            mult•-ycar rn~~ uf dt:veloping the t.;rQund b)' ·tem mQe.ld Qf lilC~ing on a •qtij!le year dunn!!!
            Ylhidl roth II tnmstllon of wort from the no\\ -defunct NPOESS rru~ L~lnctded \\ llh the
            tmplL-mentauon of n severely under-funded program

             When d1~u...._"'"~ lhl! ~ground ~ystcm," it would he helpful iflhc OlG report \\-OUid distmgui"h
             llctwccn the ..tala tran...mll;.siun. C<l(li.ll'lllitic:s nfthc ground ~)"'item and the ..att:llitc rrudue1
             cJ~h1htre:- Whtle both are n~. 'lal) in o;m ins~ hudget p~sun!' und implcmentarioo
             ~trot~: •ic~ c:m 1mpact these two areas differently.




(1200000-103) 




                                                                 24
 
